No. 20-1532
IN THE SUPREME COURT OF THE UNITED STATES
_________________
DIANA GARVEY, PETITIONER
v.
DENIS R. MCDONOUGH,
SECRETARY OF VETERANS AFFAIRS
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via email and first-class mail,
postage prepaid, this 6th day of August, 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,522
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I
declare under penalty of perjury that the foregoing is true and correct. Executed on
August 6, 2021.

Elizabeth B. Prelogar
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
August 6, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-1532
GARVEY, DIANA
DENIS R. MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS
ROBERT C. BROWN, JR.
TOMMY KLEPPER & ASSOCIATES, PLLC
702 WALL STREET
SUITE 100
P.O. BOX 721980
NORMAN, OK 73069
405-928-5055
BOBBROWN@TOMMYKLEPPERLAW.COM
KENNETH M. CARPENTER
CARPENTER, CHARTERED
1525 SOUTHWEST TOPEKA BOULEVARD
PO BOX 2099
TOPEKA, KS 66601
785-357-5251
KMCARPENTER@MINDSPRING.COM

VIA EMAIL

